WAIVE

upreme Court, U
FILED

MAY 0 3 2021
CE OF THE CLERK

SUPREME COURT OF THE UNITED STA
No.

20-7814
Hamilton County, Ohio, Hamilton County4}

Brandon Bowie

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Hamilton County, Ohio Hamilton County Juvenile Court, Judge Hendon in her official capacity only and
Magistrate Kelly in all capacities sued.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

4/29/21

Date:

(Type or print) Name

Pamela J. Sears
0 Mr.

Ms.

0 Mrs.

Firm

Hamilton County Prosecutor's Office

Address

230 E. Ninth Street, Ste. 4000

City & State

Cincinnati, Ohio

Phone

(513) 946-3082

0

Miss

Zip 45202
Email

pam.sears@hcpros.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover
Brandon Bowie, 1608 Brentnell Ave., Columbus, Ohio 43219
CC:

D

MAY 1 7 20 1
OFFICE OF THg CL RK
SUPREME COURT S.

